Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

September 30, 2020
BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Bridge Aina Le‘A, LLC v. Hawaii Land Use Commission, No. 20-54

Dear Mr. Harris:
I represent respondent in the above-referenced petition for certiorari. A response is
currently due on October 26, 2020. Respondent respectfully requests that the time to file a
response be extended by 30 days, to and including November 25, 2020.
The extension is warranted because the undersigned counsel, Neal Katyal, was recently
retained as counsel of record and must familiarize himself with the issues and record. In
addition, Mr. Katyal has upcoming deadlines in several other matters that will require his
attention over the coming weeks, including a petition for certiorari in Market Graphics, Inc. v.
Berge, No. 18-6177 (6th Cir.), due October 5; a petition for certiorari in Babcock v.
Commissioner of Social Security, No. 19-1687 (6th Cir.), due October 8; a petition for rehearing
and rehearing en banc in City of Oakland v. Wells Fargo & Co., No. 19-15169 (9th Cir.), due
October 9; a petition for certiorari in IQVIA Inc. v. Mussat, No. 19-1204 (7th Cir.), due October
12; a petition for certiorari in The Episcopal Church v. The Episcopal Diocese of Fort Worth,
No. 18-0438 (Tex.), due October 19; oral argument in Fulton v. City of Philadelphia, No. 19-123
(U.S.), on November 4; and a merits reply brief in Nestlé USA, Inc. v. John Doe I, No. 19-416
(U.S.), due November 13. Given these commitments, an extension of time is warranted to permit
Mr. Katyal to prepare a response that fully analyzes and responds to the arguments raised in the
petition for certiorari.
Respectfully submitted,
/s/ Neal Kumar Katyal
Neal Kumar Katyal
Counsel of Record for Respondent
cc:

Michael M. Berger, Manatt, Phelps & Phillips

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US
LLP and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis
Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rome San Francisco São Paulo Shanghai Silicon Valley Singapore Sydney Tokyo
Warsaw Washington, D.C. Associated Offices: Budapest Jakarta Riyadh Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers: Johannesburg Louisville.
Legal Services Center: Berlin. For more information see www.hoganlovells.com

